Report No. SPO-2010-006                 September 17, 2010




             Exposure to Sodium Dichromate at

                  Qarmat Ali Iraq in 2003:


          Part I - Evaluation of Efforts to Identify,

     Contact, and Provide Access to Care for Personnel
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.


                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                     'NSPECTOR G E N E RA L
                                    DEPARTMENT F DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704
                                                                                     SEP   1 7 2010


ME MORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
                                READINESS
                            COMMANDER, U.S. ARMY CORPS OF ENGINEERS



SUBJECT: Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                Exposed to Sodium Dich rom ate at Qarmat Ali Iraq
                (Report No. SPO-20 10-006)


        We are providing this report for inform ation and use. We requested and received
comments in response to the draft report from the Assistant Secretary of the Anny for Manpower
and Reserve Affairs; U.S. Army Corps of Engineers; U.S. Army Public Health Command; Office
of the Chief Surgeon, National Guard Bureau; U.S. Central Command; the Indiana Army
National Guard; the Oregon Army National Guard; t he South Carolina Army National Guard;
and t he West Virginia Anny National Guard.


        The office of the Deputy Under Secretary of Defense for Personnel and Readiness
provided advance comments to the draft report, which we considered in the preparation of this
final report. Final comments were unavailable at the time of publi cation. The Department of
Veterans Affairs responded to the draft report but did not provide comments .


        All DO D m anagemenl comments, received so far, concurred with the recommendations
of the report. We considered all technical comments that we received in the preparat ion of this
final report.


        We appreciate the courtesies extended to the staff. Please direct questions to Mr. George
Marquardt at (703) 604-9159 (DSN 664-9159) or Lt Col L ee Nelson at (703) 604-9192 (DSN
664-9192).




                                        Deputy Inspector General
                                        Speci  Plans and Operations
This Page Intentionally Left Blank
                                                                                Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                                              Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                                            September 17, 2010 Report No. SPO-2010-006


                  Results in Brief: Evaluation of Efforts to
                  Identify, Contact, and Provide Access to
                  Care for Personnel Exposed to Sodium
                  Dichromate at Qarmat Ali Iraq in 2003
  What We Did
  This report is the first of two addressing actions related to an environmental exposure at Qarmat Ali
  Iraq. We reviewed Army efforts to identify, contact, and communicate risk to individuals exposed to
  sodium dichromate at the Qarmat Ali water treatment plant in 2003. For the purposes of this report,
  we consider anyone who served at Qarmat Ali as having been exposed to sodium dichromate. We also
  described Department of the Army and Department of Veterans Affairs efforts to ensure access to care
  for exposed individuals. We visited and interviewed officials from impacted Army commands, and
  coordinated with the Veterans Health Administration of the Department of Veterans Affairs with
  respect to this issue.
  What We Found
  The Army conducted adequate efforts to identify and contact military and DoD civilian personnel in a
  reasonably timely manner, subsequent to a request from Congress in June 2008. While these efforts
  were thorough, not all identified personnel could be found or were willing to respond once located.
  Moreover, in the absence of complete personnel, duty and other relevant records for individuals who
  had served near Qarmat Ali in 2003, it was not possible to determine with precision which exposed
  individuals may not have been identified, contacted, and offered medical care.

  As of September 2010, representatives from the Department of the Army, Army National Guard
  headquarters of the four impacted states, and the U.S. Army Corps of Engineers, identified 972 living
  DoD military or civilian personnel who potentially served at Qarmat Ali in 2003, and reported having
  contacted 895 (92 percent) of them. At the time of this report, the Oregon Army National Guard and
  the U.S. Army Corps of Engineers were continuing efforts to locate personnel who conducted
  missions at the Qarmat Ali facility.

  Identified individuals exposed to sodium dichromate at the Qarmat Ali facility in 2003 had the
  opportunity to receive medical care. However, military and civilian personnel received care through
  different procedures.
    •	 Serving and former soldiers of all components who served in Operation Iraqi Freedom were
       and still are eligible for inclusion in the Gulf War Registry*, and can receive an exposure-
       specific medical evaluation offered by the Department of Veterans Affairs. The Department
       of Veterans Affairs reported that they expect to pay for outreach activities and medical
       examinations with a combination of existing and additional programmed operating funds.
    •	 Civilian employees of DoD generally received health care from civilian providers. Exposed
       civilians were offered the opportunity to talk with a trained DoD medical care provider.
       There was no process to ensure DoD civilians who were exposed to sodium dichromate
       received medical examinations similar to those offered to active and former soldiers as part
       of the Department of Veterans Affairs Gulf War Registry.
* The Department of Veterans Affairs Persian Gulf War Registry was established by Public Law 102-585, “Persian Gulf War
Veterans Health Status Act,” November, 1992, to identify individuals who served as members of the Armed Forces in the
Persian Gulf theater of operations during the Persian Gulf War. According to the Veterans Health Affairs Handbook
1303.02, the intent of the registry was to “identify possible diseases resulting from U.S. military personnel service in certain
areas of Southwest Asia.”
                                                                 i
                                                                      Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                                    Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                                  September 17, 2010 Report No. SPO-2010-006

 What We Recommend
 The Commander, U.S. Army Corps of Engineers should notify all current and former military
 personnel who were identified as having served at the Qarmat Ali facility in 2003 of their eligibility
 for the Department of Veterans Affairs Gulf War Registry and associated sodium dichromate
 exposure-related medical evaluation.
 The Under Secretary of Defense for Personnel and Readiness should:
   •	 publicize the eligibility of active duty personnel who served at the Qarmat Ali facility in

      2003 for the Department of Veterans Affairs Gulf War Registry

   •	 review policy and procedures for active duty personnel eligible to undergo the Department

      of Veterans Affairs Gulf War Registry medical evaluation

   •	 develop and publicize a means to offer DoD civilians who served at Qarmat Ali in 2003 an 

      exam and medical surveillance similar to what the Department of Veterans Affairs avails to

      military personnel and veterans.


 Client Comments
 The staff of the Under Secretary of Defense for Personnel and Readiness and the U.S. Army Corps
 of Engineers, Deputy Commanding General for Military and International Operations, provided
 comments to the draft report. Comments received were responsive and concurred with our
 recommendations. In addition, several other Department of Defense organizations provided
 technical comments which we considered for the final report. For detailed discussion of
 management comments to the draft report, see Appendix D.

 Recommendations Table
Client                                              Recommendations                       No Additional
                                                    Requiring Comment                     Comments Required
Commander, U.S. Army Corps of Engineers                                                   1
Under Secretary of Defense for Personnel                                                  2a, 2b, 2c
and Readiness

Total Recommendations in this Report: 4




                                                       ii
Table of Contents

Results in Brief: Evaluation of Efforts to Identify, Contact, and Provide Access to 

Care for Personnel Exposed to Sodium Dichromate at Qarmat Ali Iraq in 2003                                                            .......   i


  What We Did ................................................................................................................... i 

  What We Found ............................................................................................................... i 

  What We Recommend .................................................................................................... ii 

  Client Comments ............................................................................................................ ii 

  Recommendations Table................................................................................................. ii 


Introduction       ....................................................................................................................... 
   1

  Objectives ....................................................................................................................... 1 

  Scope and Methodology ................................................................................................. 1 

  Background ..................................................................................................................... 2 


Summary and Recommendations                           ....................................................................................      7


Discussion     .........................................................................................................................      10

  Identifying and Contacting Personnel Who Performed Duty at the Qarmat Ali Water 

  Treatment Plant ............................................................................................................. 10 

  Providing Access to Care for Personnel Who Performed Duty at the Qarmat Ali Water 

  Treatment Plant ............................................................................................................. 22 


Appendix A. Letter from the Senate A rmed Services Committee                                                 ............................ 
   27

Appendix B. Letter from the Senate Democratic Policy Committee                                                   ........................     28 


Appendix C. Scope and Methodology                             .......................................................................... 
    31

Appendix D. Management Comments and Our Response                                                .........................................     32 


Appendix E. Distribution                  ..............................................................................................      34 





Acronyms and Abbreviations

ARNG                                         Army National Guard
CHPPM                                        Center for Health Promotion and Preventive Medicine
DPC                                          Democratic Policy Committee
KBR                                          Kellogg, Brown & Root
NGB                                          National Guard Bureau
SASC                                         Senate Armed Services Committee
USACE                                        United States Army Corps of Engineers
VA                                           Department of Veterans Affairs
This Page Intentionally Left Blank
                                                          Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                        Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                      September 17, 2010 Report No. SPO-2010-006




Introduction
In 2003, the U.S. Army Corps of Engineers (USACE) contracted KBR (formerly
Kellogg, Brown, and Root, Inc.) to restore Iraq’s oil industry following combat
operations. The Qarmat Ali water treatment plant was one of several hundred facilities
that required restoration, but the only one of its type at that time. While conducting
renovation and providing site security, Army soldiers, U.S. Army civilian employees,
KBR workers, and other USACE contractors were exposed to industrial hazards,
including sodium dichromate, which contains hexavalent chromium, a known carcinogen.

USACE and the Army command in Iraq were made aware of the exposure in August
2003 and took a series of actions in response. The Senate Democratic Policy Committee
(DPC) conducted a hearing concerning the exposure in June 2008. The Committee held a
second hearing in August 2009. On August 11, 2009, seven members of the DPC
requested that the Inspector General review the conduct of the Army and KBR related to
the exposure of U.S. soldiers to sodium dichromate in 2003. In September 2009, the
Senate Armed Services Committee (SASC) asked the Secretary of Defense to evaluate
the adequacy and timeliness of the Department’s efforts to identify and contact soldiers
who were exposed, or who potentially were exposed, and ensure they had access to
appropriate care. We conducted this project to address the concerns of both Committees.

We are reporting our results in two parts. Part I (this report) will discuss our review of
DoD efforts to identify, contact, and in coordination with the Department of Veterans
Affairs (VA), provide access to care for impacted personnel (see Appendix A, SASC
request). Part II will report our findings relating to Army and DoD contractor actions
taken at the Qarmat Ali facility in 2003 (see Appendix B, DPC request).

Objectives
Our overall objective was to review DoD actions regarding the exposure of personnel to
sodium dichromate at the Qarmat Ali water treatment plant in 2003. This report
specifically addresses DoD efforts to identify and contact exposed personnel, and DoD
and VA procedures to ensure access to care.

Scope and Methodology
This report addresses military and civilian personnel assigned duties at the Qarmat Ali
water treatment plant, Iraq, from April 2003 through January 2004. In response to the
SASC request, we assessed DoD efforts concerning military and civilian employees of
DoD exposed to sodium dichromate as a result of work at the Qarmat Ali facility. We
did not review quality of care provided to these exposed individuals. Neither did we
include KBR employees or other DoD private contractors because they were not DoD’s
direct responsibility, and to avoid potentially impacting ongoing civil litigation in which
KBR was involved.

We conducted this review from September 2009 through September 2010. We
interviewed and collected information from representatives of the Assistant Secretary of


                                                     1

                                                           Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                         Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                       September 17, 2010 Report No. SPO-2010-006

Defense for Health Affairs, the Assistant Secretary of the Army for Manpower and
Reserve Affairs, U.S. Central Command, U.S. Army Center for Health Promotion and
Preventive Medicine (CHPPM) 1, USACE, and impacted State Army National Guard
(ARNG) headquarters and units. We coordinated with the Veterans Health
Administration of the VA and visited State ARNG offices in January 2010. (See
Appendix C for further discussion of scope and methodology.)

Background
Site Occupation and Hazard Identification. USACE was assigned the mission to
restore Iraq’s oil industry infrastructure (Restore Iraqi Oil – RIO) in January 2003. In
March 2003, USACE awarded KBR contract DACA63-03-D-0005 to support the RIO
mission. On March 20, 2003, USACE awarded Task Order 0003, covering the
restoration of several hundred oil production facilities: oil wells, gas oil separation
plants, and other supporting facilities, including the Qarmat Ali water treatment plant.

The Qarmat Ali facility was constructed in the 1970’s by the Union of Soviet Socialist
Republics, and was critical to maintenance of the Rumallah oil fields. Water drawn from
the Tigris River was treated at the facility and injected under pressure into the ground to
drive oil to the surface and help prevent ground subsidence. Prior to U.S. occupation of
the site, the water was filtered and treated with sodium dichromate, a corrosion inhibitor,
to increase the life of pipelines, pumps, and other equipment. Sodium dichromate
exhibits as an orange powder and contains hexavalent chromium (chromium VI), a
carcinogen. Pre-war operations and post-war vandalism resulted in sodium dichromate
contamination over parts of the facility.

KBR and USACE first visited the site in late April 2003 (see Figure 1), and began regular
work at the site in late May. U.S. soldiers from the Oregon and West Virginia ARNG
escorted civilian employees and contractors on day trips from Kuwait to perform work at
the site. A military unit from the United Kingdom provided general site security; U.S.
personnel did not live at the site during repair and renovation. As shown in Figure 1,
soldiers from the Indiana and South Carolina ARNG were added to the mission and
eventually replaced the Oregon and West Virginia ARNG units.

According to trip reports, KBR was first made aware of sodium dichromate use at
Qarmat Ali by Iraqi Southern Oil Company representatives during a meeting on June 1,
2003. However, a USACE safety manager testified that he had observed sodium
dichromate on-site in April 2003, and that the “contractor was aware those chemicals
were hazardous.” Other USACE representatives stated they were unable to verify the
timing of this April site visit, and concluded that the observations likely occurred later,
probably in June 2003. A KBR site assessment report consolidating information from
early July 2003 identified sodium dichromate as a corrosion inhibitor used at the Qarmat
Ali facility.



1
 On October 1, 2009, the Army renamed CHPPM as the U.S. Army Public Health Command (Provisional).
We will use “CHPPM” throughout this report.


                                                      2

                                                                 Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                               Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                             September 17, 2010 Report No. SPO-2010-006

    KBR performed several clean-up actions following identification of hazardous site
    conditions. In June 2003, KBR reported covering “yellow stained soil” with soil from
    outside the water treatment plant “as an initial measure to minimize direct contact with
    the stained soil and prevent or minimize the airborne mobility and inhalation of the
    contaminated surface soil.” On August 7 and 9, 2003, a representative from the KBR
    Environmental Group conducted a limited environmental assessment, collecting soil and
    air samples. KBR notified the USACE contracting office of possible contamination on
    August 8, 2003. Following confirmation of chromium contamination on August 12,
    2003, KBR notified the USACE Administrative Contracting Officer of their intent to
    “immediately procure a contractor, materials, and means to encapsulate the soils in
    question.” Remedial measures began on August 18 and continued into October 2003.
*USACE determined 286
civilian/military personnel were
assigned to RIO in 2003-2004. It is
undetermined how many performed
duty at Qarmat Ali. USACE personnel
continued to oversee contract work at
Qarmat Ali through August 2007.

**2 of the IN ARNG, 1 of the OR ARNG,
and 2 of the USACE personnel were
deceased prior to outreach efforts.




          Figure 1. Timeline for Potential Sodium Dichromate Exposure at the Qarmat Ali
          Water Treatment Plant.
    Starting on September 8, 2003, KBR limited access to the facility, and workers visiting
    the site were required to use personal protective equipment. The next day, the USACE
    Environmental Health and Safety Office recommended notification of coalition forces
    and testing of USACE employees who had spent time at the site. On September 19,
    2003, the Combined Forces Land Component Commander issued a fragmentary order
    restricting all coalition soldiers from the site and discontinuing any mission to the facility
    without permission from the Command Surgeon. 2

    On September 15, 2003, the Combined Forces Land Component Command Surgeon’s
    office notified CHPPM of the potential exposure. On September 26, 2003, the Surgeon
    sent an official request for occupational and environmental health personnel support.



    2
      The Combined Forces Land Component Commander was the senior commander of ground forces,
    responsible to the Commander, Multi-National Forces – Iraq. In 2003, the Commander, V U.S. Corps was
    assigned as the Combined Forces Land Component Commander.


                                                            3

                                                          Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                        Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                      September 17, 2010 Report No. SPO-2010-006

Site Assessment. In response to the Command Surgeon’s request, a CHPPM Special
Medical Augmentation Response Team conducted a health risk assessment at the Qarmat
Ali facility from September 30 through November 2, 2003. The CHPPM health survey
team performed four main tasks.
   •	 Collected and analyzed air, soil, and surface wipe samples.
   •	 Conducted medical screening of 129 Indiana ARNG soldiers and 10 USACE
      personnel who were on-site at the time of the evaluation.
   •	 Provided questionnaires to 52 Oregon ARNG soldiers and 53 South Carolina
      ARNG soldiers who were still in the area of responsibility, but no longer
      serving at the site during the evaluation.
   •	 Provided health risk communication to all of the foregoing soldiers contacted
      directly by the team or by questionnaire.
KBR Health, Safety, and Environment provided the CHPPM health survey team the
results of air quality and soil samples collected from August through October 2003, at the
Qarmat Ali facility. CHPPM published a classified report of their findings on January
15, 2004. The Defense Health Board reviewed the classified CHPPM report and issued
their assessment on December 19, 2008. CHPPM released an unclassified version of its
report on January 10, 2009, redacting information related to military operations and
personally identifiable information.

The CHPPM health survey team assigned a level of operational risk to the site and rated
their confidence in that conclusion based on the evidence. They assigned low operational
risk for the Qarmat Ali site for “past, current, and future exposures.” They further
supported a low to negligible overall long-term health risk. For personnel working at the
site at the time of the assessment, they had a medium level of confidence in their
conclusion. However, for prior exposures, including those before soil encapsulation, they
had a low level of confidence in their conclusion. The CHPPM team acknowledged the
assumed data for past exposures and the impact of KBR mitigation efforts on chromium
contaminated areas increased the uncertainty of exposure risk. (We discuss CHPPM
conclusions further in Part II of this assessment.)

The CHPPM health survey report included 13 recommendations to the Combined Forces
Land Component Command Surgeon. The first 11 recommendations outlined on-site
actions for the command in 2004. Regarding identification and contact of personnel, the
report recommended that the command ensure:
   •	 “units in past potentially exposed population” receive the same risk 

      communication as units present during the assessment; and

   •	 “individuals identified with abnormal ancillary test results complete follow-up
      medical evaluation…”
On October 17, 2003, during the CHPPM assessment, the Combined Forces Land
Component Commander modified the fragmentary order of September 19, 2003 and
restricted coalition soldiers from entering certain portions of the Qarmat Ali facility and
mandated appropriate personal protective equipment when they did so.


                                                     4

                                                         Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                       Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                     September 17, 2010 Report No. SPO-2010-006

We will discuss actions taken by responsible organizations in response to the CHPPM
report in Part II of this assessment.

Post-Assessment Actions. KBR completed work at the Qarmat Ali facility and
associated pumping stations in March 2005. On November 14, 2005, the Iraqi Southern
Oil Company accepted control of the site. According to USACE, another U.S.
contractor, Parsons Iraq Joint Venture, provided engineering and equipment support, with
Iraqi workers performing installation/construction tasks, as late as August 2007.

DoD, Joint Staff, and Army policy in effect since 2002 required active duty soldiers and
reserve component soldiers called to active duty for over 30 days, who were deployed in
support of contingencies, to complete a Post-Deployment Health Assessment within 5
days of redeployment. This updated a 1998 DoD policy requiring Post-Deployment
Health Assessments for all active and reserve component personnel deployed for 30 or
more days to a location without a permanent U.S. military treatment facility. DoD, Joint
Staff, and Army policy required commands to submit completed forms to the Army
Medical Surveillance Activity in Washington DC. The purpose of these assessments was
to "document the general health status of...redeploying members."

Congressional Interest. During a series of congressional hearings by the Senate DPC
into waste, fraud, and abuse, and other contracting issues in Iraq, KBR employees
testified that they were exposed to sodium dichromate while deployed. This led the
Senate DPC to hold a hearing on June 20, 2008, specifically addressing the sodium
dichromate exposure in Qarmat Ali, Iraq in 2003. Two former KBR employees testified
to their health problems during and after their service at the Qarmat Ali facility, and KBR
actions concerning hazard identification and subsequent actions. The Chairman of the
Department of Environmental Medicine, New York University School of Medicine, also
testified and questioned the results of the medical testing conducted by the CHPPM
health survey team in October 2003.

On June 26, 2008, Senator Byron Dorgan requested the Secretary of Defense to,
“…investigate KBR’s conduct in exposing U.S. troops and its own workers…” and
“…review whether the troops have been properly tested, monitored and treated.” The
Secretary of Defense referred the request to the Army. Senator Dorgan’s letter was the
first in a series of inquiries to the Secretary of Defense and the Secretary of the Army
from Senators regarding exposed ARNG units, and Department of the Army responses,
that continued through April 2009.

On August 3, 2009, the Senate DPC conducted a hearing during which four former Army
soldiers (three Guardsmen and one active duty) testified about their exposure to sodium
dichromate at Qarmat Ali. The former Associate Director for Health at the
Environmental Protection Agency’s National Center for Environmental Assessment also
testified about the health risks associated with exposure to sodium dichromate.

Following the second hearing, on August 11, 2009, seven Senators signed a letter to the
DoD Inspector General, requesting a formal investigation into the exposure of U.S.




                                                    5

                                                         Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                       Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                     September 17, 2010 Report No. SPO-2010-006

soldiers to sodium dichromate at the Qarmat Ali water treatment plant. We announced
this review on September 11, 2009.

In a September 15, 2009 letter, the Chairman and Ranking Member of the Senate Armed
Services Committee (SASC) requested that the Secretary of Defense, “evaluate the
adequacy and timeliness of the Department’s efforts to date, including actions undertaken
jointly with the Department of Veterans Affairs,” to identify, contact, and ensure access
to appropriate care for soldiers who were exposed, or who potentially were exposed, to
sodium dichromate at Qarmat Ali, Iraq in 2003.

The Secretary of Defense referred the request from the SASC to the Army, who in turn
requested that the DoD Inspector General include the evaluation in the Inspector
General’s ongoing review. It was determined that we would respond to the SASC
concerns in a Part I first, because the question concerned the ongoing health of effected
soldiers. Part II will address the concerns raised by the Senate DPC.




                                                    6

                                                              Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                            Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                          September 17, 2010 Report No. SPO-2010-006


Summary and Recommendations
We documented the processes the Army, State ARNG bureaus, and USACE used to
identify and contact personnel who may have been exposed to sodium dichromate at the
Qarmat Ali water treatment plant in 2003.

Through a comprehensive search, Army organizations identified 977 3 DoD military or
civilian personnel who potentially served at Qarmat Ali from 2003 to 2004, five of whom
were deceased prior to the initiation of outreach efforts. However, the absence of
complete records from 2003 prevents a firm conclusion that the Army was able to
identify all personnel who may have been exposed. Organizations identified below
reported contacting 895 (92 percent) of the 972 potentially exposed soldiers and civilians
still living.


                                       Deceased
                          Total                         Outreach       Individuals      Individuals       Total %
    Unit/Organization                   Prior to
                        Population                     Population       Contacted       Remaining        Contacted
                                       Outreach
           IN               144              2             142              142               0             100%
          OR                278              1             277              249              28             90%
          SC                146              0             146              126              20             86%
          WV                122              0             122              122               0             100%
        USACE               286              2             284              255              29             90%
          3 ID               1               0                1              1                0             100%

         Totals             977              5             972              895              77             92%

                                                       Data reported by units as of September 10, 2010.

                           Table 1. Summary of Individuals Contacted.


Several factors complicated locating and contacting affected individuals.
     •	 Five years had elapsed between exposure at the site and attempts to contact
        individuals.
     •	 A large percentage of the National Guard soldiers were no longer serving, and
        some had moved out of state.
     •	 Organizations, especially USACE, identified personnel using conservative
        assumptions, meaning some individuals initially identified as potentially
        exposed were determined to have never had duty at the Qarmat Ali facility.



3
  One former active duty soldier from the 3d Infantry Division (3 ID) also testified that he was on-site at
Qarmat Ali in 2003. The Army reported contacting this individual; we provide more information on his
situation on page 24.


                                                         7

                                                             Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                           Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                         September 17, 2010 Report No. SPO-2010-006

In light of these factors, the efforts to date by DoD organizations to identify and contact
individuals ranged from adequate to exemplary. To help overcome some of these
obstacles, organizations with less than 100 percent contact may find state Fusion Centers 4
to be an invaluable resource for obtaining current contact information. The timeliness of
Army organizations to identify and contact personnel was reasonable, given that it did not
recognize a need for an additional intensive search effort until 2008.

Based on our assessment, all current and former soldiers and DoD civilian employees
notified of their potential exposure to sodium dichromate at the Qarmat Ali facility in
2003 had, and still have, the opportunity to access medical care.

Serving and former National Guardsmen from Indiana, Oregon, South Carolina, and
West Virginia were eligible for VA care, including the Gulf War Registry and an
exposure-specific medical evaluation. The VA conducted outreach with this group.

Access to exposure-specific medical evaluations for USACE military and civilian
personnel is less certain. The USACE organization and mission, employing a relatively
small number of military and civilian personnel across several hundred sites in Iraq, made
identifying exposed individuals more difficult than for State ARNG bureaus. While
USACE demonstrated their process for providing civilian employees and military
personnel with medical care, we did not see any evidence of USACE specifically
notifying its military personnel of their eligibility for the VA Gulf War Registry.


        Recommendation 1: The Commander, U.S. Army Corps of Engineers
        should notify all current and former military personnel whom they
        identified as having served at the Qarmat Ali facility in 2003 of their
        eligibility for the Department of Veterans Affairs Gulf War Registry and
        associated sodium dichromate exposure-related medical evaluation.


The Deployment Health Working Group, subordinate to the VA/DoD Joint Executive
Council, reviewed and facilitated outreach related to occupational and environmental
exposures, such as that experienced at Qarmat Ali, beginning in 2008. DoD and VA can
use this organizational structure to improve communication and enhance opportunities for
active duty military and civilians who served at the Qarmat Ali facility in 2003 to access
care.




4
  The Department of Homeland Security through the Office of Intelligence and Analysis provided funding
and personnel with operational and intelligence skills to state and local “fusion centers.” The purpose of
the fusion centers is to share information and intelligence within their jurisdictions as well as with the
federal government. Fusion centers have access to the Homeland Security Data Network.


                                                        8

                                                 Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
               Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                             September 17, 2010 Report No. SPO-2010-006



Recommendation 2: The Under Secretary of Defense for Personnel and
Readiness, as the Co-Chair of the Department of Veterans Affairs/DoD
Joint Executive Council, should:
   a. publicize the eligibility of active duty personnel who served at the
   Qarmat Ali facility in 2003 for the Department of Veterans Affairs
   Gulf War Registry.
   b. review policy and procedures for funding, adjudication of results,
   and control of medical records for active duty personnel who undergo
   the Department of Veterans Affairs Gulf War Registry medical
   evaluation.
   c. develop and publicize a means to offer DoD civilians who served at
   Qarmat Ali in 2003 a medical exam and medical surveillance
   comparable to the sodium dichromate exposure-related evaluations
   conducted by the Department of Veterans Affairs for the Gulf War
   Registry.




                                            9

                                                               Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                             Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                           September 17, 2010 Report No. SPO-2010-006


Discussion
Identifying and Contacting Personnel Who Performed
Duty at the Qarmat Ali Water Treatment Plant
The following discussion provides greater detail with respect to the SASC request. We
summarize information concerning Department of the Army, affected State ARNG
bureaus, USACE, and VA efforts to identify, contact, and provide access to adequate care
for personnel who were exposed to sodium dichromate at Qarmat Ali, Iraq in 2003. The
ability of all impacted organizations to identify and contact personnel who performed
duty at Qarmat Ali in 2003 was restricted. Limiting factors and each organization’s
efforts are discussed below.

Department of the Army
The Secretary of the Army took three significant actions to address the identified
exposure. First, in September 2008, he established a “senior level Army Review Panel,
led jointly by the Assistant Secretary of the Army for Manpower and Reserve Affairs and
the Assistant Secretary of the Army for Acquisition, Logistics and Technology, [to]
review the issues associated with the sodium dichromate exposure at the Qarmat Ali
facility.” 5 The Secretary of the Army directed the panel to address policy and
procedures, review actions taken to identify and follow up on exposed individuals, and
examine USACE contract oversight.

In December 2008 and January 2009, Army representatives briefed the panel’s findings
to Senator Evan Bayh and staff members from the SASC and Senate DPC. Two panel
results were relevant to this report. The panel:
      •	 identified the units with exposed personnel: 1-152 Infantry Battalion, Indiana
         ARNG; 1-162 Infantry Battalion, Oregon ARNG; 133rd Military Police
         Company, South Carolina ARNG; C Company, 1092nd Engineer Battalion,
         West Virginia ARNG; and civilian employees of USACE; and,
      •	 described specific Indiana ARNG risk communication, soldier identification,
         coordination with the NGB, and partnership efforts with VA concerning
         exposed soldiers.

As part of the review panel, the Surgeon General of the Army requested that the Defense
Health Board review the 2003 CHPPM environmental health assessment. The Defense
Health Board supported the CHPPM findings, stating they “…met or exceeded the
standard of practice for occupational medicine in regard to the exposure assessment and
medical evaluation….” The Defense Health Board also provided 14 recommendations
for process improvement: seven specific to Qarmat Ali, and seven with a broader scope.
We will discuss actions taken by responsible organizations in response to the CHPPM
report in Part II of this assessment.


5
    As stated in a letter from the Secretary of the Army to Senator Evan Bayh dated September 22, 2008.


                                                         10

                                                              Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                            Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                          September 17, 2010 Report No. SPO-2010-006

Second, representatives from Assistant Secretary of the Army for Manpower and Reserve
Affairs and the NGB Chief, Preventive Medicine, visited ARNG personnel from the four
impacted states:

    •	 Indiana – From August 16-18, 2008, the representatives participated in five
       town hall meetings organized by Indiana ARNG. On November 6-7, 2008,
       the representatives were briefed by the Indiana ARNG Qarmat Ali Working
       Group, Transitional Assistance Advisor, and Medical Branch. They also
       interviewed 1-152 battalion unit leadership and other soldiers who conducted
       operations at Qarmat Ali in 2003.
    •	 Oregon – From February 4-6, 2009, representatives met with the Oregon
       ARNG Chief of Staff, Deputy State Surgeon, Qarmat Ali project officer, and
       Public Affairs Officer to help develop a program for addressing soldier
       concerns. They also interviewed seven members from the 1-162 battalion,
       including the Executive Officer and senior non-commissioned officer.
    •	 West Virginia – From March 6-9, 2009, representatives met with the West
       Virginia ARNG Adjutant General, Public Affairs Officer, and a representative
       from the Surgeon’s Office to evaluate progress toward identifying and
       addressing concerns of effected soldiers. They attended two town hall
       meetings sponsored by the West Virginia ARNG. They interviewed the
       former Operations Officer of the 1092nd Engineer Battalion, former
       commander of C Company, 1092nd Engineer Battalion, and current and
       former soldiers of the 1092nd Engineer Battalion.
    •	 South Carolina – From May 18-19, 2009, representatives met with the South
       Carolina ARNG Chief of Staff, Assistant Chief of Staff, and Deputy State
       Surgeon to help develop a program for addressing soldier concerns. They
       interviewed 11 soldiers from the 133d Military Police Company, including the
       Commander and three other company members.
Third, in May 2009, the Secretary of the Army directed the Commander, USACE to
conduct an informal investigation using Army Regulation 15-6 6 procedures, focused on
“site assessment, personnel notification, and on-site response actions undertaken by
responsible government and contractor officials.” Army representatives stated that the
Secretary of Army was briefed on the findings of the USACE report on April 6, 2010,
and subsequently directed the Army Under Secretary and the Vice Chief of Staff to
develop a plan to implement report recommendations.

National Guard Bureau
The NGB made initial coordination with the four affected State ARNG bureaus between
June 26, 2008, and July 17, 2008, providing background information, notice of command
concerns, and initial questions. The NGB Chief, Preventive Medicine, also contacted


6
  Army Regulation 15-6 “establishes procedures for investigations and boards of officers not specifically
authorized by any other directive.” It states, “the primary function of any investigation or board of officers
is to ascertain facts and to report them to the appointing authority.”


                                                        11

                                                         Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                       Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                     September 17, 2010 Report No. SPO-2010-006

CHPPM and obtained the list of exposed soldiers identified by CHPPM in their 2003
health risk assessment.

Additional guidance, information, and assistance provided by the NGB Chief, Preventive
Medicine, between November 2008, and March 2009, included:
   •	 Identifying the Indiana ARNG program as a model to follow. Communication
      with the Oregon, South Carolina, and West Virginia ARNG included
      recommendations for risk communication and key points of contact in the
      Indiana ARNG.
   •	 Providing the Oregon and South Carolina ARNG a risk communication fact
      sheet from the Indiana ARNG, an article from the Journal of Community
      Health, and contact information for the CHPPM risk communication expert.
   •	 Supplying each state’s ARNG with a detailed summary of the Indiana ARNG
      process to identify, contact, and provide access to care for effected soldiers.
      In this case, one state ARNG representative reported receiving the e-mailed
      summary, while two stated they did not.
   •	 Giving all four state ARNG public affairs talking points to help guide their

      responses.

Throughout the State ARNG bureaus’ efforts to identify and contact personnel, the NGB
Chief, Preventive Medicine maintained awareness of state efforts through periodic
updates and assembled a central database of names. And, as described above, he
accompanied the representative from the Assistant Secretary of the Army for Manpower
and Reserve Affairs to ARNG units from all four impacted states.

State ARNG and USACE
The approaches taken from 2008 to 2010 by the four impacted State ARNG and USACE
to address past exposure differed, but in all cases the major elements were the same.

Elements of an Adequate Response
For this report, we defined the criteria that would comprise an adequate response for
organizations with personnel who performed duty at Qarmat Ali, to include five basic
actions.

   1.	 Identify personnel who performed duty at the site and were exposed to sodium
       dichromate.
   2.	 Contact exposed individuals.
   3.	 Communicate the risk and opportunities for health care.
   4.	 Develop data collection methods to track and evaluate contact, risk 

       communication, and individual responses and concerns. 

   5.	 Establish dedicated project oversight.




                                                   12

                                                         Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                       Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                     September 17, 2010 Report No. SPO-2010-006

A discussion of State ARNG and USACE outreach, results, and a summary of whether
their responses met these criteria follows.

Indiana ARNG
1-152 Infantry Battalion provided security to USACE civilians and KBR employees
throughout the Rumallah oil fields, including Qarmat Ali, from June 2003 through
January 2004. C Company of the battalion was assigned the mission, augmented by 21
soldiers from other companies of the 1-152 battalion.

Soldier Identification and Contact Methodology

The Indiana ARNG reported that the Adjutant General of Indiana was made aware of the
exposure on June 20, 2008 (see Figure 2). By early July 2008, the Indiana ARNG
identified 653 soldiers of the 1-152 Infantry Battalion who were assigned as personnel
security in support of the USACE mission to Restore Iraqi Oil. The Indiana ARNG
further determined that 144 of the 653 soldiers provided security at Qarmat Ali. The 144
exposed soldiers were identified starting with the list of those evaluated by CHPPM in
Iraq in 2003. Additional names were added through a review of duty rosters, soldier
interviews, and the personal knowledge of battalion leadership.

After returning from Iraq and prior to contact efforts in 2008, one soldier died from
interstitial lung disease, and a second as a result of an automobile accident, leaving an
exposed population of 142 individuals requiring contact. The Indiana ARNG named the
142 surviving personnel who were determined to have been on-site Group A. A soldier
belonging to this group died of lung cancer in November 2009, and another died of
accidental electrocution at his home in July 2010.

The remaining 511 personnel who deployed to Iraq with the 1-152 Infantry Battalion
were designated Group B. See Figure 2 for a timeline of efforts to identify and contact
personnel.




      Figure 2. Timeline for Indiana ARNG Key Events in Response to Potential

      Sodium Dichromate Exposure at the Qarmat Ali Water Treatment Plant.



                                                   13

                                                             Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                           Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                         September 17, 2010 Report No. SPO-2010-006

The Indiana ARNG established a Qarmat Ali Work Group in the first week of July 2008
comprised of an Officer in Charge (Lieutenant Colonel, Nurse Corps); a Non-
Commissioned Officer in Charge (Sergeant First Class, medical specialist); six enlisted
combat medics; and two additional personnel. Indiana’s plan consisted of four key tasks:
    •	 Ensure the accuracy of the list of exposed soldiers (Group A).
    •	 Communicate with all soldiers who deployed to Iraq – Group A via letter and
       phone call, Group B by letter.
    •	 Complete a Line of Duty determination as a permanent record that the

       exposure was service connected.

    •	 Register all contacted soldiers with the VA and coordinate appropriate

       medical assessments and testing if needed.

The Qarmat Ali Work Group prepared to contact soldiers using data from the Standard
Installation/Division Personnel Reporting System, Locator Plus web site, and unit-level
rosters to confirm mailing addresses. They sent the first notices by certified mail to
Group A soldiers on July 12, 2008, and Group B soldiers on July 14, 2008. On July 25,
2008, they sent a second copy to Iraq for distribution to 159 soldiers who were exposed,
or who were potentially exposed, in 2003 (24 from Group A, 135 from Group B) and
were redeployed thereafter on a different mission.

The letters provided background concerning exposure to sodium dichromate, contained
the Web link to the June 20, 2008 Senate Democratic Policy Committee hearing, and
urged Soldiers to contact a telephone hotline for more information. The letter also
offered soldiers an opportunity to complete a Post-Deployment Health Reassessment, 7
obtain a Line of Duty determination, and receive a health assessment from the VA.

The Indiana ARNG operated the toll-free Health Hotline mentioned in the contact letter
from July 14, 2008, through May 2009, and further publicized the number through
mailings, town hall meetings, and local media articles. The Indiana ARNG reported that
314 soldiers who called the Hotline number after September 25, 2008 received an
additional letter explaining how to register in the VA hospital system.

From August 16-18, 2008, the Indiana ARNG conducted five town hall meetings. The
intent of these meetings was to provide facts, decrease fears and uncertainty, provide
access-to-care information, and allow attendees to voice concerns and document their
questions. The Qarmat Ali Working Group, senior officers from the Indiana ARNG,
representatives from the Regional VA medical center, and as mentioned above, Army and
NGB representatives all briefed attendees. Town hall meetings were attended by 49
active and separated Indiana ARNG soldiers, at least 115 family members, and others.



7
 The post deployment health reassessment was a new requirement included in DoD Instruction 6490.03,
“Deployment Health,” August 11, 2006. The instruction requires a post deployment health reassessment
“be administered to each redeployed individual within 90 to 180 days after return to home station from a
deployment that required completion of a post-deployment health assessment.”


                                                       14

                                                          Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                        Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                      September 17, 2010 Report No. SPO-2010-006

In mid-September 2008, the Indiana ARNG expanded its search for individuals with
missing and incorrect addresses to include the Indiana Bureau of Motor Vehicles
database, National Guard Liaison at the Army Human Resources Command, Indiana
State Fusion Center, and next of kin information. Further, the NGB Manpower and
Personnel Directorate provided access for a search of the Personnel Electronic Records
Management System and the Defense Enrollment Eligibility Reporting System.

The Qarmat Ali Work Group met with soldiers who were deployed during initial contact
efforts during demobilization processing in November 2008 to follow-up on the
information they were mailed in July 2008. The Indiana ARNG disbanded the group
March 30, 2009, and shut down the hotline on May 31, 2009.

Results
The Indiana ARNG reported that they achieved contact with all 142 soldiers
(100 percent) in Group A by letter and phone or face-to-face, and 483 soldiers
(95 percent) in Group B (173 by letter only, and 310 by both letter and telephone, e-mail,
or face-to-face). Representatives stated that they discontinued efforts to contact the
remaining 28 Group B individuals. There was no confirmation that any of these 28
soldiers were ever at the Qarmat Ali facility.

During our site visit in January 2010, the Indiana ARNG was unable to provide return
receipts for certified letters. They explained that personnel turnover and office moves led
to loss of these documents.

However, the evidence provided from interviews and other documents indicates they
contacted individuals as stated. Specifically, they successfully contacted all 142 soldiers
in Group A, even though 78 (55 percent) were no longer current members of the Indiana
ARNG, demonstrating the thoroughness of efforts to locate exposed individuals.

Oregon ARNG
Two platoons from the 1-162 Infantry Battalion conducted missions in the area of the
Basra oil fields in support of the Restore Iraqi Oil effort. Units rotated over 3 to 5 day
periods throughout the area, including security missions at the Qarmat Ali facility.

Soldier Identification and Contact Methodology
The Oregon ARNG identified 278 soldiers from the 1-162 Infantry Battalion who were
exposed to sodium dichromate at the Qarmat Ali facility during the months of April
through June 2003. One of these soldiers died of leukemia complications in August
2005, leaving a population of 277 to contact.

The basis for the list was the 52 personnel screened by the CHPPM team in 2003. The
Oregon ARNG used self- and buddy-reporting, and personal recollections of the former
battalion Executive Officer and Sergeant Major to further identify exposed soldiers.
Permanent deactivation of the 1-162 battalion in January 2006 complicated soldier
identification and contact in 2009-2010.



                                                    15

                                                          Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                        Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                      September 17, 2010 Report No. SPO-2010-006

The Oregon ARNG reported establishing a dedicated phone help line in January 2009
(see Figure 3). Representatives stated they used mailings (a combination of first-class,
certified letter, and Federal Express), telephone calls, news articles, and a Web page on a
social network site to attempt to contact identified soldiers.

The Oregon ARNG assigned a member of the National Guard as a temporary project
officer from January 8, 2009, through April 11, 2009, to assist and coordinate outreach
efforts. Officials stated the project officer notified 269 soldiers by first-class mail in
February 2009 and helped interested soldiers contact the appropriate VA facility.




    Figure 3. Timeline for Oregon ARNG Key Events in Response to Potential
    Sodium Dichromate Exposure at the Qarmat Ali Water Treatment Plant.
The Public Affairs Office of the Oregon ARNG established a page on a social network
site in March 2009 to enhance outreach efforts. The release published in the local
newspaper on March 19, 2009 included the social network site page address and a contact
number for the project officer.

Results
Oregon ARNG officials stated they contacted 249 (90 percent) of 277 exposed soldiers
from the 1-162 Infantry Battalion. During our site visit in January 2010, they stated that
they planned to renew efforts to contact the remaining individuals and provide a briefing
for all Oregon ARNG soldiers during their demobilization. As of April 2010, the Oregon
ARNG continued efforts to locate the remaining 28 individuals.

We were unable to validate Oregon ARNG contact efforts because they did not retain
certified letter return receipts or other documentation supporting their outreach efforts.

South Carolina ARNG
The 133rd Military Police Company deployed to Iraq from February 10, 2003, through
January 28, 2004. The company provided a quick reaction force in support of the Restore
Iraqi Oil mission from June 2003 through November 2003.

Soldier Identification and Contact Methodology
The South Carolina ARNG reported that 146 soldiers deployed with the 133rd Military
Police Company. The NGB provided the initial list of exposed soldiers taken from the
2003 CHPPM assessment. Unit missions included convoy security to the Qarmat Ali


                                                    16

                                                          Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                        Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                      September 17, 2010 Report No. SPO-2010-006

facility, and officials stated that some soldiers remember being at the site, while others
did not. As a result, they considered all 146 soldiers as exposed to sodium dichromate.

The South Carolina ARNG established a telephone help line on November 19, 2008 (see
Figure 4). 133rd Military Police Company representatives attempted to contact solders
by certified letters and other mailings starting on November 21, 2008. Company
representatives called soldiers they could locate and provided information on their
exposure and how to contact their local VA clinic to register for care.

The South Carolina ARNG appointed a full-time Army Nurse Corps officer as special
projects officer to follow up with further contact and tracking from June 1 through
September 30, 2009.




     Figure 4. Timeline for South Carolina ARNG Key Events in Response to Potential
     Sodium Dichromate Exposure at the Qarmat Ali Water Treatment Plant.

Results
The South Carolina ARNG reported contacting 126 of the 146 (86 percent) soldiers of the
133rd Military Police Company: 64 by certified letter and phone, 44 by certified letter,
and 18 by phone. They were unable to locate 20 soldiers. During our site visit, we
viewed certified letter return receipts and letters that were returned unsigned.

West Virginia ARNG
C Company of the 1092nd Engineer Battalion provided security to USACE civilians and
KBR employees at Qarmat Ali from April through July 2003. C Company reported using
an ad hoc roster that included soldiers from across the company, sending an average of
10-12 soldiers per day to the Qarmat Ali facility.

Soldier Identification and Contact Methodology
The West Virginia ARNG was made aware in December 2008 that one of their units
conducted missions at the Qarmat Ali facility in 2003. Members of Headquarters
Company, 1092nd Engineer Battalion determined that 122 soldiers from C Company,
1092nd Engineer Battalion were exposed to sodium dichromate.

The West Virginia ARNG assigned the identification, notification, and tracking mission
to a Lieutenant Colonel working full-time late in 2008. In February 2009, they



                                                    17

                                                         Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                       Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                     September 17, 2010 Report No. SPO-2010-006

established a help line number for personnel, initiated a telephone call campaign, and sent
out notification letters by certified mail (see Figure 5). During the phone call, West
Virginia ARNG representatives explained the impacts of sodium dichromate exposure,
answered questions, and encouraged soldiers to enroll with the VA.

In the next two months, they took two significant actions. On March 7 and 8, 2009, the
West Virginia ARNG conducted the town hall meetings attended by 51 soldiers and
family members. As discussed earlier, representatives from the Army and NGB were
present at the town hall meetings and briefed attendees. In April 2009, the West Virginia
ARNG mailed soldiers contacted earlier a questionnaire designed to obtain further
information about exposure, assess their knowledge and concerns regarding exposure,
and identify their perception of West Virginia ARNG leadership.




     Figure 5. Timeline for West Virginia ARNG Key Events in Response to Potential
     Sodium Dichromate Exposure at the Qarmat Ali Water Treatment Plant.

In the succeeding months, the West Virginia ARNG reviewed medical records of
exposed soldiers, focused on Post-Deployment Health Assessments. They created a
standard file for each individual, tracking when the soldier was notified. The file
included the signed certified letter return receipt, completed questionnaire, Post-
Deployment Health Assessment form, if available, and any additional information the
soldier may have provided.

During our site visit in January 2010, we informed the West Virginia ARNG of the
Indiana ARNG efforts with their fusion center and contact information. The West
Virginia ARNG used its fusion center to gain information resulting in successful contact
of eight additional soldiers.

Results
The West Virginia ARNG reported contacting 122 of the 122 (100 percent) soldiers of C
Company, 1092nd Engineer Battalion: 54 by certified letter and phone, 56 by certified
letter, 8 by phone, and 4 by attendance at a town hall meeting. They successfully
contacted 65 soldiers who were no longer current members of the West Virginia ARNG,
demonstrating the thoroughness of efforts to locate exposed individuals.

During our site visit, we viewed case files of contacted soldiers. The files included
tracking sheets, certified letter return receipts, Post-Deployment Health Assessment


                                                   18

                                                         Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                       Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                     September 17, 2010 Report No. SPO-2010-006

forms, questionnaires, and telephone surveys where available. We verified attendance at
town hall meetings from sign-in sheets.

USACE
USACE was the military organization responsible for the Restore Iraqi Oil mission.
USACE reported 286 military and civilian personnel who contributed to this mission
from April 2003 through August 2007.

Identification and Contact Methodology
USACE representatives were unable to determine which of the individuals deployed for
the Restore Iraqi Oil mission had duty at the Qarmat Ali facility. Based on the Restore
Iraqi Oil deployment database, the USACE Safety and Occupational Health Office
identified 61 military and 225 civilian personnel who participated. However, they
established that most of them never had duty at the Qarmat Ali facility. USACE chose to
contact all individuals assigned to the Restore Iraqi Oil mission. Two of the civilians
died of heart attacks in 2003 and 2006, prior to outreach efforts, leaving a contact
population of 284.

USACE used e-mail as the primary method to contact individuals (see Figure 6). On
November 21, 2008, the USACE Occupational Health Program Manager sent an e-mail
to identified individuals who were still USACE employees. The body of the text
included a request to forward the message to anyone they were aware of who was in the
vicinity of Basra in 2003-2004. The e-mail included an attached fact sheet for health care
providers, describing health risk information and listing points of contact for additional
information. Individuals who responded to the e-mail received telephone contact from
the USACE Safety and Health Office offering an appointment with a medical care
provider.




     Figure 6. Timeline for USACE Key Events in Response to Potential Sodium
     Dichromate Exposure at the Qarmat Ali Water Treatment Plant.

On the same date, the Safety and Health Office Program Manager sent an e-mail to
USACE Safety Chiefs discussing the possible exposure and describing anticipated
actions. On November 24, 2009, the USACE Deputy Commanding General sent an
e-mail to USACE military and civilian senior leaders, including Division, Center, and
Engineer unit Commanders.


                                                   19

                                                                                                          Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                                                                        Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                                                                      September 17, 2010 Report No. SPO-2010-006

USACE nurses reached out to current employees with contact information on file, but
who had not responded to the November 21, 2009 e-mail. Nurses discussed employees’
concerns and provided information to the USACE Safety and Health Office. Employees
were also offered the opportunity to discuss concerns with an Occupational Health
provider.

In early January 2010, the USACE Occupational Health Program Manager sent letters to
35 employees no longer employed by USACE. The letter provided background, contact
information for further questions, and requested individuals to forward a copy of the
letter to anyone who “was in the vicinity of the Qarmat Ali Water Treatment Facility
2003-2004 that may not have been contacted….”

Results
USACE reported contact by e-mail, phone, or personal interview with 255 of 284
personnel who deployed on the Restore Iraqi Oil mission. We observed selected e-mail
responses from individuals. Contact efforts we observed did not inform military
personnel of their eligibility for the Gulf War Registry exam.

Summary of State ARNG and USACE Responses
As shown in Table 2, the responses to the exposure at Qarmat Ali by assessed
organizations contained the necessary elements of an adequate response as defined on
page 12 of this report. For this assessment, use of one sub-element in each of the five
elements was sufficient, although using multiple methods generally led to better results.

Unit /
                        Identify                                                     Contact                                                       Communicate                                                     Data Collection                                        Oversight
Org
                                                                                       Phone Call / E-mail




                                                                                                                                                                      Town Hall Meeting




                                                                                                                                                                                                                                                                                                    Situation Reports
                        Roster / Unit List




                                                                                                                                                                                                                   Medical Review
                                                                                                             Social Network




                                                                                                                                                                                                   Call Campaign




                                                                                                                                                                                                                                    Site Validation

                                                                                                                                                                                                                                                      GWR Registry



                                                                                                                                                                                                                                                                                  Project Officer
         Search Tools




                                                                                                                                                       Public Media
                                                         Peer to Peer




                                                                                                                                          VA Contact




                                                                                                                                                                                                                                                                     Task Force
                                             Help Line




                                                                                                                              Help Line




                                                                                                                                                                                          Survey
                                                                           Letters




 IN      X              X                    X           X                 X           X                                      X           X            X              X                   X        X               X                X                 X              X            X                 X

 OR                     X                    X           X                 X           X                     X                X           X            X                                                                                              X                           X

 SC                     X                    X                             X           X                                      X           X                                                        X                                X                 X                           X

 WV      X              X                    X           X                 X           X                                      X           X            X              X                   X        X               X                X                 X                           X

USACE                   X                    X           X                 X           X                                      X                                                                    X               X                                                              X

                                                                                                                                                              Data reported by organizations as of March 2010.
                                      Table 2. Summary of State ARNG and USACE Responses.




                                                                                                                                            20
                                                         Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                       Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                     September 17, 2010 Report No. SPO-2010-006

The NGB coordinated with each State ARNG to identify units and exposed soldiers to
create a comprehensive database of exposed soldiers. State ARNG and USACE used a
variety of methods to contact and communicate with identified individuals. All units
appointed a central office to lead, coordinate, and monitor efforts.

As shown on page 7 of this report, the Army identified 977 individuals who were
exposed to sodium dichromate at the Qarmat Ali facility in 2003. While it is unlikely
that additional personnel or units assigned duty at Qarmat Ali will be identified, the
insufficiency of detailed Army and State ARNG records from 2003 does not allow for
absolute assurance.

Organizations reported building lists of exposed individuals, assuming that an individual
was exposed unless demonstrated otherwise. Specifically, the USACE list included all
military and civilians assigned to the Restore Iraqi Oil effort, without specifying
individuals who were assigned to the Qarmat Ali facility.

All organizations reported personnel turnover as an obstacle to contacting identified
individuals. Officials from two State ARNGs reported a large percentage of soldiers who
served in 2003 had since separated from the Guard. Significant numbers of those no
longer lived in the state for which they served, and deactivation of one impacted unit
further complicated efforts. Inaccurate and out-of-date personnel information created a
need to utilize creative methods for locating former soldiers.

During the conduct of this project, several organizations continued attempts to contact
individuals, and periodically updated their databases of information. Therefore, the
number of individuals identified and contacted shown in this report may differ from prior
reports. Army representatives stated that the standard was for each State ARNG bureau
to contact 100 percent of deployed soldiers in the identified units and determine if the
individual had duty at Qarmat Ali.

Department of Veterans Affairs
While identification, contact, and tracking of soldiers and civilians exposed at the Qarmat
Ali facility was a DoD responsibility, VA coordinated and participated with the Army
and NGB concerning risk communication to current and former soldiers.

VA program managers coordinated with state ARNG officials in all four states. They
attended and briefed at the town hall meetings held by two State ARNG bureaus. State
ARNG officials from South Carolina and Oregon reported that VA representatives also
participated in soldier outreach efforts.

VA included information specific to Qarmat Ali on its web site, including a description
of the occupational and environmental exposure to chromium at the facility, an
explanation of potential health hazards, and an overview of potential VA benefits.




                                                   21

                                                             Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                           Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                         September 17, 2010 Report No. SPO-2010-006



Providing Access to Care for Personnel Who Performed
Duty at the Qarmat Ali Water Treatment Plant
The Department of the Army, NGB, affected State ARNG bureaus, USACE, and the VA
have coordinated their efforts to provide access to care for personnel exposed to sodium
dichromate at the Qarmat Ali facility.

Soldiers and government civilians performed duty at the Qarmat Ali facility in 2003.
Qualification for the type of medical care provided exposed individuals depended on their
status within one of three categories.
    •	 VA Eligible – This category included two groups of soldiers. The first group
       consisted of members of the Active Army or National Guard who completed
       service and separated or retired. The second group was members of the State
       ARNG still serving in the National Guard. These soldiers comprised the
       majority of the individuals who served at the Qarmat Ali facility. They
       qualified for VA benefits, barring ineligibility for reasons such as discharge or
       release under dishonorable conditions, or not completing the full period for
       which they were called to active duty. In these cases, individuals have an
       appeal process available to them. 8
    •	 Active Duty Military – This category included soldiers who remain in service
       on active status. Identified individuals in this group performed duty for
       USACE. These soldiers had access to medical care through the DoD­
       administered military health care system, and will qualify for VA benefits
       when they separate from service.
    •	 Civilians – This category consisted of individuals who served at the Qarmat
       Ali facility as civilian employees of DoD. These individuals generally
       received medical care from civilian providers.

Care for VA Eligible Individuals
In May 2009, CHPPM provided information on a series of environmental exposures in
Iraq and Afghanistan to the joint DoD/VA Deployment Health Working Group. In
response, VA proposed establishing a registry for veterans exposed to sodium dichromate
at the Qarmat Ali facility. According to a VA official, this registry is based on the type
of surveillance that the Occupational Safety and Health Administration would require for
a population of industrial workers who were exposed to chromates. The official also said
it could serve as a model for developing medical surveillance for exposures in Operation
Iraqi Freedom and Operation Enduring Freedom. The VA reported that program costs


8
  VA publication “Federal Benefits for Veterans, Dependents and Survivors,” 2010 edition, states, “A
person who served in the active military…and who was discharged or released under conditions other than
dishonorable [including retirees] may qualify for VA health care benefits. Reservists and National Guard
members may also qualify for VA health care benefits if they were called to active duty (other than for
training only) by a Federal order and completed the full period for which they were called or ordered to
active duty.”


                                                       22

                                                              Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                            Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                          September 17, 2010 Report No. SPO-2010-006

were partially built into current funding for Gulf War Registry 9 examinations. They
planned to program for funds to conduct additional required testing, with other expenses
coming from existing operating funds.

In October 2009, the Secretary of Veterans Affairs wrote in response to a letter from a
member of Congress:

         We are in the process of augmenting the GWR [Gulf War Registry] to reflect service at
         Qarmat Ali. The involved Guard members who have had an initial examination will be
         recalled to have a complete exposure assessment, as well as a more targeted physical
         examination and ancillary testing looking for indications of health outcomes that may be
         related to hexavalent chromium. Those who have yet to enroll in the GWR will get this
         targeted examination initially. They will also receive a chest radiograph and pulmonary
         function testing. This evaluation will be repeated periodically (every year for
         examination and every 5 years for chest radiograph).
Therefore, inclusion in the VA Gulf War Registry provided a mechanism for the majority
of personnel exposed to sodium dichromate at Qarmat Ali to receive access to VA health
care.

A VA representative stated that names of individuals who were exposed at the Qarmat
Ali facility were initially obtained from State ARNG bureaus in July 2009. The reported
numbers of identified and contacted individuals changed during our evaluation. A
CHPPM official reported that they provided an updated list to the VA in January 2010.

As of March 2010, VA officials reported that 124 personnel from the State ARNG units
identified as exposed at the Qarmat Ali facility had registered in the Gulf War Registry
(69 from Indiana, 8 from Oregon, 17 from South Carolina, and 30 from West Virginia).
As indicated in Table 1 on page 7, the total eligible ARNG population is 687. A West
Virginia ARNG official opined that many veterans did not have, or want to use, the time
and expense to travel to a VA facility for the Gulf War Registry examination.

VA representatives planned to send an information package to all VA eligible individuals
who served at the Qarmat Ali facility to attempt to increase the number of registrants.
The packet will include a letter signed by the Secretary of Veterans Affairs inviting
individuals to participate in the medical evaluation, a fact sheet, physical exam
procedures, and points of contact for VA hospitals. As of September 16, 2010, the letter
was in coordination for signature by both the Secretary of Defense and the Secretary of
Veterans Affairs.

USACE officials reported approximately 48 separated or retired military personnel took
part in the Restore Iraqi Oil mission. VA was made aware that former USACE military
personnel may have been exposed to sodium dichromate at the Qarmat Ali facility during


9
  The VA Persian Gulf War Registry was established by Public Law 102-585, “Persian Gulf War Veterans
Health Status Act,” November, 1992, to identify individuals who served as members of the Armed Forces
in the Persian Gulf theater of operations during the Persian Gulf War. According to the Veterans Health
Affairs Handbook 1303.02, the intent of the registry was to “identify possible diseases resulting from U.S.
military personnel service in certain areas of Southwest Asia.”


                                                        23

                                                            Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                          Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                        September 17, 2010 Report No. SPO-2010-006

our evaluation. USACE provided a list of names of separated and retired military
personnel to the Army and VA on June 25, 2010.

One additional group of active duty soldiers from the 3d Infantry Division was reported
to have performed duty at the Qarmat Ali facility in 2003. A former soldier testified in a
Congressional hearing that he and seven other members of his unit performed an
infrastructure assessment of the plant in April 2003. He also testified subsequently that
he had access to VA medical care. The Army has been unable to substantiate that any
other soldiers from the unit were present at the facility.

Care for Active Duty Military Personnel
Personnel who performed duty at the Qarmat Ali facility in 2003 and remain on active
duty have access to medical care through the DoD-administered military health care
system. In addition, they are authorized to register for the Gulf War Registry and request
the tailored medical evaluation.

The VA Veterans Health Administration Handbook 1303.02, June 5, 2007 states, “Active
duty military personnel who served in Southwest Asia are eligible to participate in the
GWR [Gulf War Registry] program.” The handbook further states for Active Duty
military personnel:

       (1) When active duty members of the uniformed services apply to VA facilities for a
       GWR examination, the Department of Defense (DoD) must authorize and provide the
       appropriate DoD Form 2161, Referral for Civilian Care, or equivalent form, requesting
       this examination, or DoD must provide services under an existing DoD-VA sharing
       agreement…Procedures for processing the examination are the same as those for a
       veteran participating in this program.
       (2) A military facility may perform the GWR examination according to VA instructions.
       (3) Military facilities may obtain the pertinent VA administrative issue and appropriate
       forms from the nearest VA site.
       (4) Military facilities must provide completed copies of the worksheets, physical
       examination, laboratory tests, etc., to the nearest VA medical center or outpatient clinic.
A representative from the office of the Assistant Secretary of Defense for Health Affairs
stated that DoD had no objection to VA offering the Gulf War Registry medical
evaluation to soldiers who served at the Qarmat Ali facility and remain on active duty.
However, both DoD and VA officials pointed out that active duty applications for VA
benefits occur infrequently. Processing evaluations from active duty soldiers would
require exceptions to normal funding, record-sharing, and adjudication processes.

On April 13, 2010, USACE, through the Army, provided the VA with contact
information for 13 personnel who performed duty at the Qarmat Ali facility and remained
on active duty. VA intended to reach out to these soldiers and offer the Gulf War
Registry medical evaluation.

Care for DoD Civilian Personnel
Civilian employees of DoD who participated in operations in Southwest Asia are not
authorized to participate in the VA Gulf War Registry. There was no corresponding



                                                      24

                                                           Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                         Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                       September 17, 2010 Report No. SPO-2010-006

process to ensure DoD civilians who were exposed to sodium dichromate received
medical examinations similar to those offered to active and former soldiers.

However, USACE did offer its civilian employees the opportunity to talk with a medical
care provider. In December 2009, the USACE Safety and Health Office coordinated
training for USACE nurses on potential health effects from service at the Qarmat Ali
facility. CHPPM and the USACE Public Affairs Office provided input to the training,
which included a presentation on risk communication. The USACE Occupational Health
Program Manager followed up with a fact sheet and tracking spreadsheet to USACE
nurses and local Chiefs of Safety on January 7, 2009.

In general, civilian employees of DoD received care from civilian providers. However,
Department of Defense Directive 1404.10, “Civilian Expeditionary Workforce”, January
23, 2009, includes circumstances in which DoD civilians also could receive care in a
military treatment facility.

       Deployed DoD civilian employees who were treated in theater continue to be eligible
       for treatment in an MTF [Military Treatment Facility] or civilian medical facility for
       compensable illnesses, diseases, wounds, or injuries under the Department of Labor
       Office of Workers’ Compensation Program (DOL OWCP)…upon their return at no cost
       to the civilian employee. DoD civilian employees who deployed and are subsequently
       determined to have compensable illnesses, diseases, wounds, or injuries under the DOL
       OWCP programs also are eligible for treatment in an MTF or civilian sector medical
       facility at no cost to the civilian employee.

DoD and VA Coordination
                                                         Providing access to care for personnel who
                                                         may have been exposed to sodium
                                                         dichromate at Qarmat Ali is complicated
                                                         by the different organizations and
                                                         categories of personnel involved. DoD
                                                         and VA have addressed the exposure to
                                                         sodium dichromate at the Qarmat Ali
                                                         facility as one of several instances of
                                                         occupational and environmental exposures
                                                         (see Figure 7). The inter-agency
                                                         Deployment Health Working Group, a
                                                         subordinate group under the VA/DoD
                                                         Joint Executive Council, is spearheading
Figure 7. Overview of VA/DoD                             the effort.
Coordination for Deployed Occupational
and Environmental Exposures.




                                                     25

This Page Intentionally Left Blank




               26

                                            Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
          Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                        September 17, 2010 Report No. SPO-2010-006



Appendix A. Letter from the Senate Armed
Services Committee




                                      27

                                             Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
           Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                         September 17, 2010 Report No. SPO-2010-006




Appendix B. Letter from the Senate
Democratic Policy Committee




                                       28

                                  Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                              September 17, 2010 Report No. SPO-2010-006




                            29

                                  Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                              September 17, 2010 Report No. SPO-2010-006




                            30

                                                         Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                       Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                     September 17, 2010 Report No. SPO-2010-006




Appendix C. Scope and Methodology
Our objective was to review DoD actions regarding the exposure of personnel to sodium
dichromate at the Qarmat Ali water treatment plant in 2003. We conducted this
evaluation from September 2009 to September 2010, in accordance with the standards
established by the President’s Council on Integrity and Efficiency (now the Council of
the Inspectors General on Integrity and Efficiency) published in the Quality Standards for
Inspections, January 2005. Although we only conducted a limited validation of contact
information provided by State ARNG headquarters and USACE, the evidence we
obtained provides a reasonable basis for our observations and conclusions in concert with
our objectives.

Scope
The scope of this project includes military and civilian personnel assigned to DoD
organizations performing duty at the Qarmat Ali water treatment plant, Iraq, from April
2003 through January 2004. We described Army efforts to identify, contact, and
communicate risk to individuals exposed to sodium dichromate. We also discuss Army
and VA efforts to ensure access to care for exposed individuals.
We did not include KBR employees or other private contractors because they were not
DoD’s direct responsibility, and to avoid potentially impacting ongoing civil litigation.
We also did not evaluate the quality of medical care provided to any exposed individual.

Methodology
We interviewed and collected information from representatives of the Assistant Secretary
of Defense for Health Affairs, the Assistant Secretary of the Army for Manpower and
Reserve Affairs, U.S. Central Command, U.S. Army CHPPM, USACE, and impacted
State ARNG headquarters and units. We coordinated with the Veterans Health
Administration of the VA. We visited the Indiana, Oregon, South Carolina, and West
Virginia ARNG offices in January 2010.
We examined statutes, policies, procedures, and management and oversight reports
relevant to DoD policy and practices regarding efforts to identify and contact personnel
exposed to sodium dichromate at the Qarmat Ali water treatment plant in 2003 and 2004.
We reviewed coordination efforts by DoD and VA concerning access to medical care for
personnel exposed to sodium dichromate at Qarmat Ali.

Use of Computer-Processed Data
We obtained summarized copies of the original databases assembled by USACE, NGB,
State ARNG offices, and the VA for this report. These organizations constituted the only
source for the list of impacted individuals. We judged the information to be sufficiently
reliable to support the conclusions and recommendations in the report.




                                                   31

                                                         Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                       Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                     September 17, 2010 Report No. SPO-2010-006


Appendix D. Management Comments and
Our Response
We requested and received comments from nine DoD organizations and the VA.
Summaries of their comments follow; complete comments are available upon request.
Office of the Under Secretary of Defense for Personnel and Readiness. The office of
the Under Secretary of Defense for Personnel and Readiness provided advance comments
to the draft report, which were responsive and concurred with our recommendations.
Final comments were unavailable at the time of publication.
Office of the Assistant Secretary of the Army for Manpower and Reserve Affairs.
The Assistant Secretary of the Army for Manpower and Reserve Affairs provided
responsive comments and concurred with our recommendations. His response included
technical comments from the U.S. Army Public Health Command (formerly CHPPM).
We incorporated six comments into this report and disagreed with three.
   •	 The Assistant Secretary of the Army for Manpower and Reserve Affairs

      wrote that “The overall report as written implies that a serious health

      outcome is expected in the ‘exposed personnel.’”

          o	 IG Response: We believe the report indicates only the facts, without
             any implication of the likelihood of adverse health outcomes.
   •	 We stated that “There was no process to ensure that DoD civilians who were
      exposed to sodium dichromate received medical examinations similar to
      those offered to active and former soldiers as part of the Gulf War
      Registry.” The Assistant Secretary of the Army for Manpower and Reserve
      Affairs expressed concern with this sentence, stating “First, these
      evaluations were initiated prior to the VA program. Second, there is no
      clear consensus that the components of the VA program are sensitive and
      specific screening procedures, so it is appropriate for individual providers to
      determine what elements of an examination are indicated.”
          o	 IG Response: Our intent was to highlight the difference between
             military and civilian portions of the exposed population. The timing
             of the VA program does not impact our statement. We consider the
             components and specific screening procedures of the VA program as
             elements of the quality of care and beyond the scope of this report.
   •	 The Assistant Secretary of the Army for Manpower and Reserve Affairs

      wrote that “The manner of deaths [of Indiana ARNG soldiers] is not

      relevant or appropriate in this report and implies that these deaths are the

      result of the Qarmat Ali incident.”

          o	 IG Response: The report states the fact that seven personnel of the
             identified population are deceased and identifies the causes of their
             deaths. Including the seven individuals fully accounts for the
             identified population, and we neither state nor imply a connection to
             their service at Qarmat Ali.




                                                   32

                                                         Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                       Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                     September 17, 2010 Report No. SPO-2010-006

U.S. Army Corps of Engineers. The Deputy Commanding General for Military and
International Operations concurred with Recommendation 1. His response included one
technical comment that we incorporated into the report.
U.S. Central Command. The U.S. Central Command Inspector General consolidated
responses from the Command Surgeon and U.S. Forces-Iraq J7 (Engineer). The thirteen
comments were technical and editorial. Those we chose not to incorporate did not impact
our findings, conclusions, or recommendations.
National Guard Bureau. The Army National Guard, Office of the Chief Surgeon
reviewed the draft report and concurred with it as written.
State National Guard Bureaus. Representatives from the Oregon, South Carolina, and
West Virginia Army National Guard concurred with their sections of the draft report as
written. The representative from the Indiana Army National Guard provided two
technical comments. We incorporated one comment clarifying the results of that state’s
efforts to contact its personnel who served at Qarmat Ali. We did not include statistics
provided concerning participation in the VA Gulf War Registry exam. The report
contains only VA reported Gulf War Registry exam statistics, as not all states tracked that
metric.
Department of Veterans Affairs. Representatives of the Department of Veterans
Affairs replied, but provided no comments in response to the draft report.




                                                   33

                                                          Exposure to Sodium Dichromate at Qarmat Ali Iraq in 2003:
                        Part I - Evaluation of Efforts to Identify, Contact, and Provide Access to Care for Personnel
                                                                      September 17, 2010 Report No. SPO-2010-006




Appendix E. Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness) *
   Assistant Secretary of Defense (Health Affairs) *
Principal Deputy Under Secretary of Defense (Policy)
Assistant Secretary of Defense (Legislative Affairs)
Department of the Army
Assistant Secretary of the Army (Manpower and Reserve Affairs) *
U.S. Army Corps of Engineers *

Inspector General, Department of the Army

U.S. Army Public Health Command (CHPPM) *

Department of the Navy
Naval Inspector General
Department of the Air Force
Inspector General, Department of the Air Force
National Guard Bureau
Office of the Chief Surgeon, National Guard Bureau *
Inspector General, National Guard Bureau
Joint Staff
Director, Joint Staff
Inspector General, Joint Staff
Combatant Command
Commander, U.S. Central Command
  Inspector General, U.S. Central Command *
Non-Defense Federal Organizations
Inspector General, Department of Veteran Affairs
Congressional Committees
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental Affairs
Senate Subcommittee on Defense, Committee on Appropriations
Senate Democratic Policy Committee
House Committee on Armed Services
House Committee on Foreign Affairs
House Committee on Oversight and Government Reform
House Subcommittee on Defense, Committee on Appropriations



* Denotes recipient of draft report.


                                                    34

      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations


                                                                                                                                                Department of Defense Inspector General


             of Defense personnel, programs and operations to support the
                                                                                                                                                           400 Army Navy Drive


                  Department's mission and serve the public interest.
                                                                                                                                                        Arlington, VA 22202-4704






                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
